.*

/>

-5195

No.

IN THE SUPREME COURT OF THE UNITED STATES

IN THE INTEREST OF C.E.A.O
MICHAEL TIMOTHY QUINN,
Petitioner
V.

1

m §ip 1
1 i ^ y y \s

OFFICE OF THE ATTORNEY GENERAL STATE TITLE IV-D
CAPACITY,

FILED
JUL 1 6 2021

and
KARA COURSEY,

OFFICE OF THE CLERK
SUPREME COURT, U.S.

Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF TEXAS

PETITION FOR A WRIT OF CERTIORARI

Submitted by:
MICHAEL TIMOTHY QUINN, Pro Se
25531 Pacer Circle.
Tomball, TX 77375
Phone:+1 (832) 922-1433
michael.tim.quinn@gmail.com

QUESTIONS PRESENTED
1. In Rose v. Rose, 481 U.S. 619, 641-642 (1987), Justice Scalia stated in his
concurring opinion:
“I am not persuaded that if the Administrator [now Secretary of
Veterans Affairs] makes an apportionment ruling, a state court
may enter a conflicting child support order. It would be
extraordinary to hold that a federal officer's authorized
allocation offederally grantedfunds between two claimants can
be overridden by a state official.
I also disagree with the Court’s construction of 38 U.S.C. §
211(a), which provides that “decisions of the Administrator on
any question of law or fact under any law administered by the
Veterans’ Administration providing benefits for veterans and
their dependents...shall be final and conclusive and no other
official or any court of the United States shall have power or
jurisdiction to review any such decision.” The Court finds this
inapplicable because it does not explicitly exclude state-court
jurisdiction, as it does federal...and because its underlying
purpose of “achieving] uniformity in the administration of
veterans’ benefits and protecting] the Administrator from
expensive and time-consuming litigation”...would not be
impaired. I would find it inapplicable for a much simpler reason.
Had the Administrator granted or denied an application to
apportion benefits, state-court action providing a contrary
disposition would arguably conflict with the language of § 211
making his decisions “final and conclusive ” - and if so would
in my view be pre-empted, regardless of the Court’s perception

that it does not conflict with the “purposes” of § 211. But there
is absolutely no need to pronounce upon that issue here.
Because the Administrator can make an apportionment only
upon receipt of a claim...and because no claim for
apportionment of the benefits at issue here has ever been filed,
the Administrator has made no “decision” to which finality and
conclusiveness can attach. Rose, 481 U.S. at 641-42 (emphasis
added).
Where the Secretary of the VA has denied a claim for apportionment of
veterans’ disability benefits pursuant to 38 U.S.C. § 5307, may the state
count these benefits as available income for purposes of a state court
support order?

2. Where, after Rose, supra, Congress gave the Secretary of Veterans Affairs
exclusive jurisdiction to “decide all questions of law andfact necessary to
a decision” affecting “the provision of benefits...to veterans or the
dependents or survivors of veterans,” see 38 U.S.C. § 511 (emphasis
added); and, “as to any such question” made such decisions “final and
conclusive” and unreviewable “by any other official or by any courtf id.
(emphasis added); and created an Article I Court in the Veterans Judicial
Review Act (VJRA), Pub. L. No. 100-687, 102 Stat. 4105, for exclusive
appellate review of such decisions, does a state court have jurisdiction or

authority to directly or indirectly order a disposition of these benefits in a
manner contrary to the initial benefit determination?

3. Congress’s enumerated military powers preempt all state law concerning
disposition of military benefits. Howell v. Howell, 137 S. Ct. 1400, 1404,
1406 (2017). Where Congress has not affirmatively granted the state
authority to treat veterans’ benefits received by a non-retired, disabled
service member as “income” for purposes of support obligations to
dependents, and, in fact, excludes such benefits from being considered as
income and affirmatively protects these benefits from “all legal and
equitable process whatever” whether “before or after receipt” by the
veteran, is Rose v. Rose, 481 U.S. 619 (1987), which ruled that the state
could count such benefits as an available asset for purposes of calculating
a disabled veteran’s support obligations in state court divorce proceedings,
a legitimate basis for the State of Texas to usurp the Supremacy Clause
and, in direct conflict with positive federal law, order Petitioner, a nonretired, disabled veteran to include these monies as “income” available for
purposes of calculating his child support obligations?

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
Based on Rule 14.1(b)(iii), Petitioner, Michael Timothy Quinn lists the
following cases as directly related to Petitioner’s case.
1. SCOTUS No. 20-1521
Yann Iannucci, Petitioner
v.
Macomb County Friend of the Court

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED........................

1

STATEMENT OF THE CASE
1.

Factual Background.

5

2.

Procedural History

1

REASONS FOR GRANTING THE PETITION

10

CONCLUSION

40

INDEX OF APPENDICES
Appendix A: Opinion of the Texas Court of Appeals ...

la-13a

Appendix B: Judgement of the Texas Court of Appeals

14a

Appendix C: Notices from the Texas Court of Appeals
Denying Motion for Rehearing......................................
Denying Motion for Rehearing En Banc........................
Granting Judicial Notice...............................................
Granting Indigency........................................................

15a
16a
17a-18a
19a-20a

Appendix D: Order of the Texas Supreme Court
Denying Petition for Review..........................................

21a-26a

Appendix E: Order of the Texas Supreme Court
Denying Motion for Rehearing.....................................

27a-32a

Appendix F: Lower Court Record Entries.....................

33a-77a

TABLE OF AUTHORITIES
Cases
Alwan v. Alwan, 70 Va. App. 599; 830 S.E.2d 45 (2019)
Andrus v. Glover Constr. Co., 446 U.S. 608 (1980).......
Barker v. Kansas, 503 U.S. 594 (1992).............................
Bennett v. Arkansas, 485 U.S. 395 (1988).......................
Boone v. Lightner, 319 U.S. 561 (1943)...........................
Buchanan v. Alexander, 45 U.S. 20 (1846).....................

39
40
17
30
.24
18, 24

Fishgold v. Sullivan Drydock <Sc Repair
Corp., 328 U.S. 275 (1946)...............................................
Free v. Bland, 369 U.S. 663 (1962)..................................
Gibbons v. Ogden, 22. U.S. 1 (1824).................................
Hayburn’s Case, 2 U.S. 409 (1792)..................................
Hillman v. Maretta, 569 U.S. 483 (2013).........................
Hisquierdo v. Hisquierdo, 439 U.S. 572 (1979)..............
Larrabee v. Derwinski, 968 F.2d 1497 (2d Cir. 1992)....
Legal Tender Cases, 79 U.S. (12 Wall.) 457 (1870)........
Martin v Hunter’s Lessee, 14 US 304; 4 L Ed 97 (1816).
McCullochv. Maryland, 17U.S. 316 (1819)...................
McGirtv. Oklahoma, 140 S. Ct. 2452 (2020).................
Porter v. Aetna Cas. & Surety Co., 370 U.S. 159 (1962)
Rostkerv. Goldberg, 453 U.S. 57 (1981)..........................
Rumsfeld v. Forum for Adad. & Inst 7
Rights, Inc., 547 U.S. 47 (2006)........................................
Tarble’s Case, 80 U.S. 397 (1871)...................................
United States v. Comstock, 560 U.S. 126 (2010)............
United States v. Hall, 98 U.S. 343 (1878).........................
United States v. O’Brien, 391 U.S. 367 (1968)...............
United States v. Oregon, 366 U.S. 643 (1961).................

24
23
23
15
15,28
27
20
14
15,35
36
37
24,26
16
16
16, 40
16
16,26
16
15,17,24

United States v. Tyler, 105 U.S. 244 (1881)

16

Veterans for Common Sense v. Shinseki,
678 F. 3d 1013 (9th Cir.2012)....................

20,24,27,32

Wissnerv. Wissner, 338 U.S. 655 (1950)....

24

Howell v. Howell, 137 S. Ct. 1400 (2017) ...

.passim

Ridgway v. Ridgway, 454 U.S. 46 (1981) ....

.passim

Rose v. Rose, 481 U.S. 619 (1987)..............

passim

Statutes

10 U.S.C. § 1408
26U.S.C. § 104..
28U.S.C. § 1257
38U.S.C. § 7252
38U.S.C. §7292
38U.S.C. § 5307

2,18,29

38 USC § 211....

passim

38U.S.C. § 511 .

passim

38U.S.C. § 5301

passim

42 U.S.C. §407..,

.....3,6

42 U.S.C. § 659..

passim

5

1
21,32
21
passim

Other Authorities
Erickson, W., Lee, C., von Schrader, S.
Disability Statistics from the American
Community Survey (ACS) (2017).................

11

DeBaun, The Effects of Combat Exposure
on the Military Divorce Rate,
Naval Postgraduate School, California (2012)

13

Kriner & Shen, Invisible Inequality:
The Two Americas of Military Sacrifice,
46 Univ. of Memphis L. Rev. 545 (2016).......

12

Melvin, Couple Functioning and Posttraumatic
Stress in Operation Iraqi Freedom and
Operation Enduring Freedom - Veterans
and Spouses, available from PILOTS:
Published International Literature
On Traumatic Stress. (914613931; 93193)........

12

Schwab, et al., War and the Family,
11(2) Stress Medicine 131-137 (1995)..............

13

Zeber, Noel, Pugh, Copeland & Parchman,
Family Perceptions of Post Deployment
Healthcare Needs of Iraq/Afghanistan
Military Personnel, 7(3) Mental Health
in Family Medicine 135-143 (2010).................

12

Finley, Fields of Combat: Understanding
PTSD Among Veterans of Iraq and
Afghanistan (Cornell Univ. Press 2011)...........

13

Rombauer, Marital Status and Eligibility
for Federal Statutory Income Benefits: A
Historical Survey, 52 Wash. L. Rev. 227 (1977)

15

Waterstone, Returning Veterans and Disability
Law, 85:3 Notre Dame L. Rev. 1081 (2010)......

15

Treatises
Story, Commentaries on the Constitution,
vol II, § 1839 (3d ed 1858)......................

36

Regulations
38 C.F.R. § 3.450-3.458

8, 34

38C.F.R. § 3.750.........

3,5

Constitutional Provisions
U.S. Const. Art. VI, cl. 2................
U.S. Const., Art. I, § 8, els. 11 to 14

2

1,20, 27, 29, 32,

PETITION FOR WRIT OF CERTIORARI
Petitioner, respectfully prays that a .writ of certiorari issue to
review the judgment below.
OPINIONS BELOW
The opinion of the Supreme Court of Texas to review the merits
appears at App. 21a-26a to the petition and is reported February 5,
2021. The opinion of the Texas Court of Appeals appears at App. la
- 13a1 to the petition and is reported September 3, 2020.
JURISDICTION
The date on which the Supreme Court of Texas decided my case
was February 5, 2021. A timely petition for rehearing was thereafter
denied on the following date: March 26,2021, and a copy of the order
denying rehearing appears at Appendix App. 27a-32a. The
Jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution, Article I, § 8, clauses 11 to 14
The Congress shall have power...
To raise and support armies, but no appropriation of money to that
use shall be for a longer term than two years;
The Appendix is presented as a single document numbered in seriatum, la, etc.

To provide and maintain a navy;
To make rules for the government and regulation of the land and
naval forces;
U.S. Constitution, Article VI, clause 2
This Constitution, and the Laws of the United States which shall be
made in Pursuance thereof; and all Treaties made, or which shall be
made, under the Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.
10 U.S.C. § 1408
(4)(A) The term “disposable retired pay” means the total monthly
retired pay to which a member is entitled less amounts which(iii) in the case of a member entitled to retired pay under chapter 61
of this title, are equal to the amount of retired pay of the member
under that chapter computed using the percentage of the member’s
disability on the date when the member was retired (or the date on
which the member’s name was placed on the temporary disability
retired list; or
26 U.S.C. § 104
(a) Except in the case of amounts attributable to (and not in excess of)
deductions allowed under 213 (relating to medical, etc., expenses)
for any prior taxable year, gross income does not include(5) amounts received by an individual as disability income
attributable to injuries incurred as a direct result of a terroristic or
military action (as defined in section (c)(2)); and
(b) Termination of application of subsection (A)(4) in certain cases
(1)
2

Individuals to whom subsection (A)(4) continues to apply

An individual is described in this paragraph if(D) on application therfor, he would be entitled to receive
disability compensation from the Department of Veteran Affairs.
38 C.F.R. § 3.750
(b) Payment of both military retired pay and disability compensation
or improved pension(3) Chapter 61 disability retirees retiring with less than 20 years of
service. Veterans who receive disability retired pay under 10.
U.S.C. Chapter 61 with less than 20 years of creditable service are
not eligible for concurrent receipt.
38 U.S.C. § 5301
(a)(1) Payments of benefits due or to become due under any law
administered by the Secretary shall not be assignable except to the
extent specifically authorized by law, and such payments made to, or
on account of, a beneficiary shall be exempt from taxation, shall be
exempt from the claim of creditors, and shall not be liable to
attachment, levy, or seizure by or under any legal or equitable process
whatever, either before or after receipt by the beneficiary....
38 U.S.C. §511
The Secretary [of Veterans Affairs] shall decide all
(a)
questions of law and fact necessary to a decision by the Secretary
under a law that affects the provision of benefits by the Secretary to
veterans or the dependents or survivors of veterans. Subject to
subsection (b) [not relevant here], the decision of the Secretary as to
any such question shall be final and conclusive and may not be
reviewed by any other official or by any court, whether by an action
in the nature of mandamus or otherwise.
42 U.S.C. § 407
The right of any person to any future payment under
(a)
this subchapter shall not be transferable or assignable, at law or in
equity, and none of the moneys paid or payable or rights existing
3

under this subchapter shall be subject to execution, levy, attachment,
garnishment, or other legal process, or to the operation of any
bankruptcy or insolvency law.
42 U.S.C. § 659
Consent to support enforcement. Notwithstanding any
(a)
other provision of law (including...section 5301 of title 38, United
States Code), effective January 1, 1975....
(h) Moneys subject to process.
In general. Subject to paragraph (2), moneys payable to an
(2)
individual which are considered to be based upon remuneration for
employment, for purposes of this section (A) consist of...
(ii) periodic benefits.. .or other payments...
by the Secretary of Veterans Affairs as compensation for a
(V)
service connected disability paid... to a former member of the Armed
Forces who is in receipt of retired or retainer pay if the former
member has waived a portion of the retired or retainer pay in order to
receive such compensation....
(B) do not include any payment...
(iii)
of periodic benefits under title 38, United States Code,
except as provided in subparagraph (A)(ii)(V)

4

<* \

STATEMENT OF THE CASE
1. Factual Background
Petitioner is a veteran of the United States Army. In the midst of
service, he was injured in combat and honourably discharged from service
being placed on the Permanent Disability retirement list. As a result of his
service-connected injuries, Petitioner is totally and permanently disabled
and unemployed. Id.
Petitioner receives Title 10 Chapter 61 Disability Retirement pay.
Based on the PDRL order 26 USC § 104(a)(5) applies to petitioner’s
Disability retirement and cannot apply as “gross income”. Petitioner
receives no “disposable retired pay” under the Uniformed Service
members Former Spouses Protection Act (USFSPA),

10 USC

1408(4)(A)(iii). Applying 38 C.F.R. § 3.750(b)(3) Petitioner must waive
his non-gross retired disability income to receive benefits from Chapter
38. Further 26 U.S.C. § 104(b)(2)(D) again codifies Petitioner’s Veteran
Affair’s disability as compensation and “not gross income” Id.
Petitioner receives Social Security Disability Insurance payments
which are benefits based upon a complex weighted formula scheme of
past average covered earnings over a period of years specifically termed
"Average Indexed Monthly Earnings" (AIME). The formula has been

5

applied to Petitioner’s AIME to calculate his Primary Insurance Amount
(PIA); the base figure that SSA uses in setting his monthly insurance
benefit payment. U.S. Congress, provisioning for the Social Security Act
protection language of 42 U.S.C. § 407, has seen to it that the child
receives direct monthly derivative payments from SSA based upon their
SSDI trust benefits scheme and as verified in the SSA official documents
that are part of the official trial record. Each dependent receives a monthly
payment of $150.00 each totalling $600.00 a month which is 56% of my
SSDI award.
The State calculates SSDI without Spouse or ex-spouse dependent
payment inclusion so that the calculation exceeds the amount the SSA
determines and pays directly. The State then treats the unearned income
that is SSDI as earned income for purposes of considering child support,
ignores dependent payments that aren’t directed to children, and then adds
that with the VA compensation to treat the disabled Veteran as if he’s
hiding earned income and includes it all in calculation for recoupment.
By legal definition Petitioner is totally disabled and physically unable
to render any service, of whatever nature, as an 'employee.' Neither the
SSA nor the VA nor the U.S. Army is his 'employer.' There is no personal
service and all Petitioner’s disability benefits are not remuneration for
6

employment and do not count toward the 'aggregate disposable earnings’.
Therefore, Petitioner receives no income within the meaning of the Child
Support Enforcement Act, 42 U.S.C. § 659(h)(l)(A)(ii)(V). Id.
Petitioner’s veteran’s disability benefits are explicitly excluded from
being considered available income for state-court child support or
alimony. 42 U.S.C. § 659(h)(l)(B)(iii). Petitioner filed a motion for
rehearing, which motion was allowed with further orders that child
support be remitted by the Petitioner. To effect the latter order, the Court
directed the child support obligation be taken from the Petitioner’s
Veteran’s Affairs (VA) benefits.
2. Procedural History
On February 16, 2018, Petitioner filed a Due Process Affidavit that
included Petition to challenge the constitutionality seeking to modify the
amount of child support considering his disability and indigent status. On
March 5, 2018, the Office of the Attorney General filed a suit for
modification of the child support order to the effect of incrementing the
sum. The Trial Court ordered the child support obligation be increased
from $385 to $590.21 per month. A request was made February 16, 2018
to the Secretary of Veterans Affairs (VA) for an apportionment of
Petitioner’s disability benefits under 38 U.S.C. § 5307 and 38 U.S.C. §
7

511. On February 3, 2020, the VA issued a decision denying the
dependents’

claim for an apportionment,

concluding that “an

apportionment would cause [Petitioner] undue financial hardship (38
C.F.R. § 3.451).” Id. The VA noted that it was “restoring” the “benefits
previously withheld” under 42 U.S.C. § 659. Id. The VA further stated
that the claimants had “a period of 60 days to file an appeal.” The claimant
did not appeal.
Petitioner maintained that his VA disability benefits were not income
under federal law, were not available for purposes of Respondent’s
support calculations, and, because the VA had made a jurisdictionally
final and conclusive determination that the dependents were not entitled
to apportionment, the state courts had no jurisdiction or authority to force
him to pay these monies to satisfy any past, present or future support
obligations. (App. 2a).
Petitioner further argued that Congress responded to Rose v. Rose, 481
U.S. 619 (1987) by passing the VJRA, Pub. L. 100-527, which granted the
VA exclusive (rather than concurrent) jurisdiction over all claims for
benefits by veterans and their dependents. (App. 7a-8a). Petitioner pointed
out that 38 U.S.C. § 211 (now § 511) was also amended to exclude state
courts from considering claims for benefits by dependents. Id. Petitioner
8

argued that 38 USC 5301 protected the specific disability benefits he
receives. Id. at 7a-8a).
The Court of Appeals affirmed. (App. 8a). It reasoned that Rose still
applied and VA disability pay was income. The Court framed the question
as “whether a state court has jurisdiction to hold a disabled veteran in
contempt for failing to pay child support, where the veteran’s only means
of satisfying this obligation is to utilize benefits received from the
Veterans’ Administration.” (App. 8a).
The court further reasoned that 42 U.S.C. § 659(h)(l)(B)(iii) did not
preclude the state from counting a veteran’s disability pay as income. (App
4a-6a). The court concluded there was no indication that this language
eliminated authority of the state to calculate income based on a veteran’s
disability compensation. (App. 5a-6a).
With respect to Petitioner’s argument that 38 U.S.C. § 5301 applied to
preclude the use of his disability benefits, the Court of Appeals again
relied on Rose in ruling that this provision did not apply to a state court’s
ability to hold a veteran in contempt for failing to pay child support. Id.
Finally, the Court rejected Petitioner’s arguments concerning the postRose amendments to 38 U.S.C. § 511 and passage of the Veterans Judicial
Review Act, stating that despite the fact that the VA had denied the
9

dependent’s apportionment request, the state court could still proceed
against Petitioner once the funds were delivered to him. (App. 6a).
Petitioner appealed to the Texas Supreme Court, which denied his
application and his motion for rehearing (App. 21a-32a). Petitioner now
seeks leave to appeal to this Court.

REASONS FOR GRANTING THE PETITION
1.

The protection of veterans’ disability pay is an issue of significant

national interest because of the number of disabled veterans that depend
on such pay. There is a substantial and growing population of disabled
veterans, many of whom have had their careers cut short by injuries they
incurred while serving and which have rendered them totally and
permanently disabled. These veterans need and deserve every protection
federal law affords.
There is more than just a waning number of disabled veterans from the
post-Vietnam era and prior. In addition to being wholly abrogated by
Congress, Rose v. Rose, 481 U.S. 619 (1987), the case relied on by the
state court in this and many other cases across the nation to deprive
veterans of their entitlements, was a 1987 case addressing an entirely
different population. Since that decision gratuitously allowing states to
unilaterally exercise authority and control over veterans’ benefits which
10

are (and always have been) explicitly protected by federal law, the nation
has been at war for the better part of three decades. VA, Trends in Veterans
with a Service-Connected Disability: 1985 to 2011, Slide 4.2
Since 1990, there has been a 46 percent increase in disabled veterans,
placing the total number with service-connected disabilities above 3.3
million as of 2011. Id. By 2014, the number was 3.8 million. U.S. Census
Bureau, Facts for Features.3 As of March 2016, the number of veterans
receiving disability benefits had increased from 3.9 million to 4.5 million.
Jd. See also VA, National Center for Veterans Analysis and Statistics,
What’s New.4 The number was above 4.5 million as of May 2019 with an
annual increase of 117 percent.5
Finally, disabilities among younger veterans has markedly inclined.
Conducting an adjusted data search, 570,400 out of 2,198,300 noninstitutionalized civilian veterans aged 21 to 64 had a VA serviceconnected disability of 70 percent or higher in 2014. Erickson, W., Lee,
C., von Schrader, S. Disability Statistics from the American Community
Survey (ACS) (2017).6 Thus, half of the total number of veterans with a

2 www.va.gov/vetdata/docs/QuickFacts/SCD_trends_FINAL.pdf
3 www.census.gov/newsroom/facts-for-features/2015/cbl5-ff23.html
4 www.va.gov/vetdata/veteran_population.asp
5 www.va.gov/vetdata/docs/QuickFacts/SCD_trends_FINAL_2018.PDF
6 www.disabilitystatistics.org (Cornell University)
11

!

disability rating greater than 70 percent are between 21 and 64 years of
age.
These staggering numbers are, in part, a result of the nature of wounds
received in modern military engagements, modem medicine’s ability to
treat the severely wounded, and modern transportation’s ability to reach
the most technologically advanced treatment facilities in a matter of hours.
Fazal, Dead Wrong? Battle Deaths, Military Medicine, and Exaggerated
Reports of War’s Demise, 39:1 International Security 95 (2014).
This progress comes with a price. Physical injuries received in combat
are horrific. Id. See also Kriner & Shen, Invisible Inequality: The Two
Americas of Military Sacrifice, 46 Univ. of Memphis L. Rev. 545, 570
(2016). However, many veterans also suffer severe psychological injuries
due to the suddenness and arbitrariness of war’s violence. Zeber, Noel,
Pugh, Copeland & Parchman, Family Perceptions of Post-Deployment
Healthcare Needs of Iraq/Afghanistan Military Personnel, 7(3) Mental
Health in Family Medicine 135-143 (2010).
Combat-related post-traumatic stress negatively impact soldiers and their
families. These conditions have been linked to increased domestic
violence, divorce, and suicide. Melvin, Couple Functioning and
Posttraumatic Stress in Operation Iraqi Freedom and Operation Enduring
12

Freedom-Veterans and Spouses, available from Published International
Literature On Traumatic Stress. (914613931; 93193). See also Schwab, et
al., War and the Family, 11(2) Stress Medicine 131-137 (1995). These
conditions are magnified for returning veterans and their families due to
the stress caused by absence and separation. Thus, despite the amazing
cohesion of the military community and the best efforts of the military
family support network, separation and divorce is common. See DeBaun,
The Effects of Combat Exposure on the Military Divorce Rate, Naval
Postgraduate School, California (2012). Families, already stretched by the
extraordinary burdens and sacrifices of national service, are too often
pushed beyond their limits causing relationships to break down. Long
deployments, the daily uncertainty of not knowing whether the family will
ever be reunited, and the everyday travails of civilian life are difficult
enough. A physical disability coupled with mental and emotional scars
brought on by combat environments make the veteran’s reintegration with
his or her family even more challenging. See Finley, Fields of Combat:
Understanding PTSD Among Veterans of Iraq and Afghanistan (Cornell
Univ.Press2011).
Finally, it cannot go without mention that an estimated 17 to 22 veterans

13

commit suicide every day.7 The stressors faced by the disabled veteran are
only exacerbated when they are engaged in state court proceedings
involving the disposition of their benefits, which are supposed to be used
to compensate them for service-connected disabilities and which are all
too often the only means of subsistence. The consequences of these
situations are inevitably magnified and extremely stressful for these
particular veterans.
2.

These concerns illustrate why the Court has emphasized that the

judiciary must not frustrate clearly expressed federal law in this subject
matter. Mansell v. Mansell, 490 U.S. 581,588-592 (1989). It does not have
to inquire into policies of Congress when the law is expressly authorized
by the Constitution. When Congress makes a law, the Supreme Court
should not question it - to inquire into the degree of its necessity is to pass
the line which circumscribes the judicial department and to tread on
legislative ground. As this Court has stated:
“[Wjhen the law (enacted by Congress) is not prohibited and is really
calculated to effect any of the objects intrusted to the government, to
undertake here to inquire into the degree of its necessity would be to pass the
line which circumscribes the judicial department and to tread on legislative
ground. This court (it was said) disclaims all pretensions to such a power.”
Legal Tender Cases, 79 U.S. (12 Wall.) 457, 539 (1870).

7 www.militarytimes.com/news/pentagon-congress/2019/10/09/new-veteran-suicidenumbers-raise-concems-among-experts-hoping-for-positive-news/
14

This is why states may not “decide merely according to the laws or
constitution of the state, but according to the constitution, laws and treaties
of the United States - ‘the supreme law of the land.’” Martin v. Hunter’s
Lessee, 14 U.S. 304, 340-341) (emphasis added). Thus, while there is a
presumption against preemption of state law governing domestic relations,
“family law is not entirely insulated from conflict pre-emption principles”
and thus, the Supreme Court has held that “state laws ‘governing the
economic aspects of domestic relations...must give way to clearly
conflicting federal enactments.’” Hillman v. Maretta, 569 U.S. 483, 491
(2013), quoting Ridgway v. Ridgway, 454 U.S. 46, 55 (1981). Where state
law conflicts with federal law and compliance with state law is not
possible in light of the federal restrictions, state law must yield. Ridgway,
supra.
This is precisely why legislation governing military affairs are
considered exclusive and preemptive federal law. Congress has exercised
exclusive authority in these premises since the earliest days of the
Republic. See, e.g., Hayburn’s Case, 2 U.S. 409 (1792) (discussing the
Invalid Pensions Act of 1792). See also Rombauer, Marital Status and
Eligibility for Federal Statutory Income Benefits: A Historical Survey, 52
Wash. L. Rev. 227, 228 (1977); Waterstone, Returning Veterans and
Disability Law, 85:3 Notre Dame L. Rev. 1081, 1084 (2010). For an
excellent discussion by the Court concerning the nature of these benefits
and the importance of protecting them see United States v Hall, 98 U.S.
343,349-355 (1878).
3. Veterans benefits originate from Congress’s enumerated “military
powers”. U.S. Const. Art. I, § 8, els. 12 - 14. United States v. Oregon, 366
U.S. 643, 648 -649 (1961); McCarty v. McCarty, 453 U.S. 210, 232-233
15

(1981); United States v. Comstock, 560 U.S. 126, 147 (2010), citing
United States v. Hall, 98 U.S. 343, 351 (1878) and stating that “the
Necessary and Proper Clause, grants Congress the power, in furtherance
of Art. I, § 8, els. 11-14, to award ‘pensions to the wounded and disabled’
soldiers of the armed forces and their dependents.”
Congress’s control over the subject is “plenary and exclusive” and u[i]t
can determine, without question from any State authority, how the armies
the
and
compensation.. .allowed,
raised,...the
be
shall
service...assigned.” Tarble’s Case, 80 U.S. 397, 405 (1871). In this
particular area, “[w]henever...any conflict arises between the enactments
of the two sovereignties [the state and national government], or in the
enforcement of their asserted authorities, those of the National
government must have supremacy....”
Id.
Congress’s powers in military affairs are “broad and sweeping. United
States v. O’Brien, 391 U.S. 367, 377 (1968). No state authority will be
assumed in these matters unless Congress itself cedes such authority or
exceeds its constitutional limitations in exercising it. Rumsfeld v. Forum
forAdad. & Inst’l Rights, Inc., 547 U.S. 47, 58 (2006). Congress has been
given no “greater deference than in the conduct and control of military
affairs.” McCarty, supra at 236, citing Rostker v. Goldberg, 453 U.S. 57,
64-65 (1981).
This Court recently reaffirmed the principle that military compensation
and disability benefits fall exclusively under Congress’s enumerated
military powers and federal law absolutely preempts state law. Howell v.
Howell, 137 S. Ct. 1400, 1404, 1406 (2017) (McCarty with its rule of
federal preemption, still applies” and “the basic reasons McCarty gave for
believing that Congress intended to exempt military retirement pay from
state community property laws apply a fortiori to disability pay
(describing the federal interests in attracting and retaining military
personnel.”)).
Disability benefits, unlike other military benefits, are a separate and
distinct class of benefits. Military retired pay is considered current
remuneration for services rendered (consideration for the fact that the
military servicemember is still in the effective rolls of potentially
serviceable members of the armed forces) and permanent disability pay is
16

not. United States v. Tyler, 105 U.S. 244, 245 (1881) (explaining the
“manifest difference” in the two kinds of military pensions: active military
retirement and permanent and total disability); Barker v. Kansas, 503 U.S.
594, 599 (1992) (noting that “[military retirees unquestionably remain in
the service and are subject to restrictions and recall; in these respects they
are different from other retirees”).
Permanent disability does not replace or substitute for waived current
retired pay of a still serviceable member. Permanent disability is not
considered an available asset or income, whether as property, or for child
support or alimony. SHowell, 137 S. Ct. at 1405-1406 (citing 38 U.S.C.
§ 5301(a)(1) (state courts cannot vest that which they have no authority to
give) and 42 U.S.C. § 659(h)(l)(A)(ii)(V) and (h)(l)(B)(iii) (noting the
distinction between the disability pay paid to a partially disabled recipient
of military retired pay which is considered remuneration and therefore
potentially countable as income and the total and permanent disability
benefits provided under Title 38 (those at issue in this case) for a former
servicemember who is 100 percent totally and permanently disabled and
was either medically retired or injured during service and discharged
before attaining the requisite number of years to qualify for retirement
pay).
In Howell, supra, the Court reiterated that state courts have no
authority to assert control over veterans’ benefits to the extent that
governing federal law says otherwise. Id. at 1404, citing Mansell, 490 U.S.
at 588. The Court reaffirmed the pre-Rose case law that held absolute
federal preemption over state domestic law issues is the rule, unless
Congress says otherwise. “McCarty with its rule of federal preemption,
still applies.” Id. (emphasis added). The Court also reconfirmed what it
had said in Mansell, that when Congress does give the state jurisdiction
and authority over these benefits, the grant is precise and limited. Id.
The state lacks authority because these federal benefits originate from
Congress’s enumerated military powers, U.S. Const. Art. I, § 8, els. 11 14. United States v. Oregon, 366 U.S. 643, 648-649 (1961); McCarty v.
McCarty, 453 U.S. 210, 232 (1981); Howell v. Howell, 137 S. Ct. 1400,
1404, 1406 (2017). If the state could invade the benefits appropriated by
Congress for the express purpose of support and maintenance of the
military and veterans, the function of government would cease. McCarty,
17

supra at 229, n. 23, citing Buchanan v. Alexander, 45 U.S. 20, 20 (1846)
(“The funds of the government are specifically appropriated to certain
national objects, and if such appropriations may be diverted and defeated
by state process or otherwise, the functions of the government may be
suspended.”) (emphasis added).
Congress has only given state courts jurisdiction and authority over
veterans’ benefits in two specific circumstances. First, a former
servicemember may be compelled to part with up to 50 percent of his or
her disposable military retired pay. 10 U.S.C. § 1408. Second, Congress
allows the federal government to pay direct support orders where a former
servicemember receives retired pay and waives only a portion of that
retired pay for disability. 42 U.S.C. § 659(h)(l)(A)(ii)(V). Such portion,
along with the remaining retirement pay, are defined as “remuneration for
employment” and thus, as “income” subject to legal process.
Consistent with the absolute preemption of state law over all military
benefits, excluded from the amounts which Congress has given states
jurisdiction over, are benefits paid to retirees who have become totally
disabled (the retiree is no longer among the rolls of the serviceable military
retirees) and those disabled veterans who never attained time in service to
quality for retirement. 42 U.S.C. § 659(h)(l)(B)(iii). As to all veterans’
benefits that are not specifically allowed by Congress to be subjected to
state process, 38 U.S.C. § 5301(a)(1) prohibits state courts from using

18

“any legal or equitable process whatever” to divert them through any type
of court order, whether before (that is, while in the hands of the
government) or after receipt by the beneficiary.
4.

Despite solid constitutional grounding in the Supremacy Clause

and the plain and unambiguous language of the federal statutes, the Court
in Rose ignored the principle of absolute preemption, ignored the statutory
exclusion of veterans’ disability benefits from consideration as an
available asset, ignored the blanket and sweeping prohibition in 38 U.S.C.
§ 5301 that protects benefits “due or to become due” from “any legal or
equitable process whatever, either before or after their receipt”, and ruled
that because veterans have a general obligation to support dependents, 100
percent of their benefits could be counted as income, leaving the state free
to unilaterally repurpose these federal appropriations.
The Court thereby gave the state carte blanche to assert dominion and
control over these benefits. Rose, 481 U.S. at 630-631, rejecting
application of 38 U.S.C. § 5301. The Court also rejected the argument,
made by both the United States8 and the disabled veteran, that the
Veterans Administration had exclusive jurisdiction under 38 U.S.C. §211
8 The Solicitor General filed a brief supporting the veteran, arguing that 38 U.S.C. §
211(a) gave exclusive jurisdiction to the Department of Veterans Affairs over
disposition of veteran’s disability pay. See https://www.justice.gov/osg/brief/charliewayne-rose-appellant-v-barbara-ann-mcneil-rose-and-state-tennessee
19

(now 38 U.S.C. § 511) over veterans’ benefits and determinations of how
such benefits should be distributed.
As pointed out by Petitioner, just after Rose, Congress passed the
VJRA and amended 38 U.S.C. § 211. Set Larrabee v. Derwinski, 968 F.2d
1497, 1498-1502 (2d Cir. 1992). In 1988, Congress overhauled both the
internal review mechanism and § 211 in the Veterans Judicial Review Act
(VJRA). Pub. L. No. 100-687, 102 Stat. 4105. See also Veterans for
Common Sense v. Shinseki, 678 F. 3d 1013, 1021 (9th Cir. 2012). In doing
this, Congress “made three fundamental changes to the procedures and
statutes affecting review of VA decisions.” Id.
First, the VJRA created an Article I Court, the United States Court of
Appeals for Veterans Claims, to review decisions of the VA Regional
Offices and the Board of Veterans’ Appeals. 38 U.S.C. §§ 7251, 7261.
Veterans for Common Sense, supra. Congress “intended to provide a more
independent review by a body...which has as its sole function deciding
claims in accordance with the Constitution and laws of the United States.”
H.R. Rep. No. 100 -963, at 26, 1988 U.S.C.C.A.N. at 5808. Congress also
noted the Veterans Court’s authority extended to “all questions involving
benefits under laws administered by the VA. H.R. Rep. No. 100-963, at 5,
1988, U.S.C.C.A.N. at 5786 ” Id. (emphasis in original). Congress thereby
20

conferred the Veterans Court with “ exclusive jurisdiction” and “the
authority to decide any question of law relevant to benefits proceedings.”
38 U.S.C. § 7252(a); 38 U.S.C. § 7261(a)(1), respectively (emphasis
added).
Second, the VJRA vested the Federal Circuit with “exclusive
jurisdiction” over challenges to VA rules, regulations and policies. 38
U.S.C. § 5307reviewed exclusively by the Federal Circuit which “shall
decide all relevant questions of law, including interpreting constitutional
and statutory provisions.” 38 U.S.C. § 7292(a), (c), (d)(1).
Third, Congress expanded the provision precluding judicial review in
former § 211. Under the new provision, eventually codified at 38 U.S.C.
§ 511,9 the VA “shall decide all questions of law andfact necessary to a
decision by the Secretary under a law that affects the provision of benefits
by the Secretary to veterans.” 38 U.S.C. § 511(a) (emphasis added).
Whereas § 211(a) prohibited review of “decisions on any question of law
or fact...under any law...providing benefits to veterans,” 38 U.S.C. §
211(a) (1970), § 511(a) prohibits review of the Secretary’s decision on
“all questions of law and fact necessary to a decision... that affects the

9 Section 211 was recodified as § 511 by the Department of Veterans Affairs
Codification Act, Pub. L. No. 102-83, 105 Stat. 378 (1991).
21

provision of benefits,” 38 U.S.C. § 511(a) (2006). This change places
primary and exclusive authority over the initial benefits determination in
the VA Secretary.
In keeping with this removal of state court jurisdiction over decisions
affecting veterans’ benefits, whereas § 211 precluded any other “official
or court of the United States” from reviewing a decision, § 511 now
precludes review “by any court...” (emphasis added). This of course,
would apply to preclude state courts from making any disposition of
veteran’s disability benefits considered off-limits by existing federal
statutes, particularly, 42 U.S.C. § 659(h)(l)(B)(iii) and 38 U.S.C. § 5301.
Any other court or entity making a decision that disturbs the calculated
benefits determination would be an usurpation of the Secretary’s exclusive
authority and an extra-jurisdictional act. .
Moreover, as Petitioner pointed out in his arguments below, there is an
exclusive process for the VA to pay disability benefits to dependents in
need. 38 U.S.C. § 5307. Consistent with 38 U.S.C. § 511 and the VJRA,
the process for a dependent to seek these benefits is through the
apportionment procedures outlined in 38 U.S.C. § 5307 and as described
in the memorandum. Id. In this case, the VA denied the claimant’s
apportionment. (App. 33a).
22

Here, the state court ignored these significant developments, and, like
many other states, ruled that this Court’s decision in Rose allows the state
to include a veteran’s disability benefits as income for purposes of his
child support obligations. Nowhere has Congress given the states the
“precise and limited” authority required to exercise jurisdiction and
control over these benefits. See Howell, 137 S. Ct. at 1404; Mansell, 490
U.S. at 588. In fact, by way of 42 U.S.C. § 659(h)(l)(B)(iii) and 38 U.S.C.
§ 5301(a)(1), Congress has excluded such benefits from state court
jurisdiction and control.
Despite a continuous line of cases from this Court declaring that federal
law preempts all state law governing the economic and domestic relations
of the parties, see, e.g., McCarty, supra; Ridgway, supra; Mansell, supra,
and Howell, supra, states continue to ignore the requirement that Congress
must give it explicit authority to dispossess the veteran of these benefits.
5. Moreover, the states continue to ignore the sweeping language of
38 U.S.C. § 5301. Ridgway addressed a provision identical to § 5301 and
ruled that it prohibited the state from using any legal or equitable process
to frustrate the veteran’s designated beneficiary from receiving military
benefits (life insurance). Citing that part of Gibbons v. Ogden, 22. U.S. 1,
210-211 (1824), in which this Court declared the absolute nullity of any
state action contrary to an enactment passed pursuant to Congress’s
delegated powers and Free v. Bland, 369 U.S. 663, 666 (1962), the Court
said: “[the] relative importance to the State of its own law is not material
when there is a conflict with a valid federal law, for the Framers of our
Constitution provided that the federal law must prevail.” Ridgway, supra
23

at 55 (emphasis added). The Court continued: “[A] state divorce decree,
like other law governing the economic aspects of domestic relations, must
give way to clearly conflicting federal enactments.” Id., citing McCarty,
supra. “That principle is but the necessary consequence of the Supremacy
Clause of the National Constitution.” Id. In McCarty the Court quite
plainly said that the “funds of the government are specifically appropriated
to certain national objects, and if such appropriations may be diverted and
defeated by state process or otherwise, the functions of the government
may be suspended.” McCarty, 453 U.S. at 229, n. 23 (emphasis added),
quoting Buchanan v Alexander, 45 U.S. 20 (1846).
As with all federal statutes addressing veterans, 38 U.S.C. § 5301 is
liberally construed in favor of protecting the beneficiary and the funds
received as compensation for service-connected disabilities. Porter v.
Aetna Casualty & Surety Co., 370 U.S. 159, 162 (1962) (interpreting 38
U.S.C. § 3101 (now § 5301) and stating the provision was to be “liberally
construed to protect funds granted by Congress for the maintenance and
support of the beneficiaries thereof’ and that the funds “should remain
inviolate.”). See also Henderson v Shinseki, 562 U.S. 428, 441 (2011)
(“provisions for benefits to members of the Armed Services are to be
construed in the beneficiaries’ favor”); Fishgold v. Sullivan Drydock &
Repair Corp., 328 U.S. 275,285 (1946) (“legislation...liberally construed
for the benefit of those who left private life to serve their country in its
hour of great need”); Boone v. Lightner, 319 U.S. 561, 575 (1943) (laws
protecting servicemembers from discrimination “liberally construed to
protect those who have been obliged to drop their own affairs to take up
the burdens of the nation”); United States v. Oregon, 366 U.S. 643, 647
(1961) (“[t]he solicitude of Congress for veterans is of long standing.”).
Moreover, contrary to the state court’s reasoning (App. 5a-6a), 38
U.S.C. § 5301, by its plain language, applies to more than just
“attachments” or “garnishments”. It specifically applies to “any legal or
equitable process whatever, either before or after receipt.” See Wissner v.
Wissner, 338 U.S. 655, 659 (1950) (state court judgment ordering a
24

“diversion of future payments as soon as they are paid by the Government”
was a seizure in “flat conflict” with the identical provision protecting
military life insurance benefits paid to the veteran’s designated
beneficiary). This Court in Ridgway, in countering this oft-repeated
contention, stated that it “fails to give effect to the unqualified sweep of
the federal statute” 454 U.S. at 60-61. The statute “prohibits, in the
broadest of terms, any ‘attachment, levy, or seizure by or under any legal
or equitable process whatever,’ whether accomplished ‘either before or
after receipt by the beneficiary.’” Id. at 61.
Relating the statute back to the Supremacy Clause, the Court concluded
that the statute:
[E]nsures that the benefits actually reach the beneficiary. It pre­
empts all state law that stands in its way. It protects the benefits
from legal process “[notwithstanding] any other law. . .of any
State’.... It prevents the vagaries of state law from disrupting
the national scheme, and guarantees a national uniformity that
enhances the effectiveness of congressional policy.... Id.
Accord McCarty, 453 U.S. at 229, n.23.
Despite this plain statutory law and the uninterrupted jurisprudence
holding that federal law in this subject preempts state law, this Court held
in Rose that state courts could force veterans to use their disability benefits
to satisfy state-imposed support orders.

25

The Court of Appeals ignored Petitioner’s argument that 38 U.S.C. §
5301 independently protected his benefits from any legal process. (App.
6a). As noted, § 5301 applies to all state court process (equitable or legal)
and jurisdictionally prohibits state courts from considering funds both
before and after receipt, unless otherwise authorized by federal (not state)
law. 38 U.S.C. § 5301(a)(1), accord Howell, supra at 1405. There is no
ambiguity in this provision. It wholly voids attempts by the state to
exercise control over these restricted benefits. United States v. Hall, 98
U.S. 343, 346 -57 (1878) (canvassing legislation applicable to military
benefits). This Court construes this provision liberally in favor of the
veteran and regards these funds as “inviolate” and inaccessible to all state
court process. Porter v. Aetna Cas. & Surety Co370 U.S. 159, 162
(1962).
Thus, not only has Congress not included Petitioner’s benefits as
available for direct garnishment in state court proceedings, Congress has
indeed indicated that Appellant’s veterans disability benefits are not
income and may not be subject to calculations for child support awards in
state domestic relations proceedings. Howell held that with respect to such
disability benefits, 38 U.S.C. § 5301 erects a jurisdictional bar to a state
court’s authority.
26

As explained herein, Rose was and still is contrary to the overarching
principle that where Congress acts in the exercise of an enumerated power
state law is preempted unless Congress says otherwise. Further, Rose
rejected federal law excluding veterans’ disability benefits from state
consideration and ignored the law protecting them from “any legal or
equitable

process

whatever.”

See,

respectively,

42

U.S.C.

§

659(h)(l)(B)(iii) and 38 U.S.C. § 5301(a)(1). Finally, just after Rose,
Congress acted to remove all doubts that state courts have any jurisdiction
or authority to consider these restricted benefits by creating an Article I
Court

with

exclusive

appellate jurisdiction

over

all

benefits

determinations as to “any court” and by giving the Secretary of Veterans
Affairs exclusive authority to make decisions on all questions of law and
fact necessary to the disposition and division of these benefits in the first
instance. 38 U.S.C. §§ 7251, 7261; 38 U.S.C. § 511. See also Henderson
v. ShinsekU 562 U.S. 428, 440-441 (2011).
Stripped of its veneer, the only remaining rationale provided by Rose
as justification to ignore express federal law is based on congressional
testimony and the notion that state law is primary in the area of domestic
relations. Both of these reasons have been rejected. Hisquierdo v.
Hisquierdo, 439 U.S. 572, 581 (1979); McCarty, 453 U.S. at 220;
27

Ridgway, 454 U.S. at 55; Mansell, 490 U.S. at 592-596; Hillman v.
Maretta, 569 U.S. 483, 490-91 (2013); and //owe//, 137 S. Ct. at 14011407 (2017).
Federal law exclusively, comprehensively and completely addresses
this issue. Yet, state courts continue to blindly cite Rose for the proposition
that states have unfettered access to these disability benefits. This has
caused a systemic destruction of the ability of disabled veterans to sustain
themselves and their families. The greatest tragedy, of course, is the effect
that this has had on the disabled veteran community as a whole.
Homelessness,

destitution,

alcoholism,

drug

abuse,

criminality,

incarceration and, in too many cases, suicide, are an all too frequent and
direct result of a blind adherence to an outdated and anomalous decision
by this Court which was not grounded on the absolute principle of federal
supremacy in this particular subject.
It is time for this Court to reconcile Rose’s reliance on speculative
congressional intent with the plain language of federal law protecting
disabled veterans and insulating their benefits from being repurposed for
unauthorized use. Petitioner’s federal disability benefits are specifically
excluded from consideration as income by federal law, 42 U.S.C. § 659(a);

28

(h)(l)(A)(ii)(V) and (h)(l)(B)(iii). As such, they are jurisdictionally
protected from any legal process whatever by 38 U.S.C. § 5301(a)(1).
As explained herein, federal law, and only federal law, authorizes the
Secretary of Veterans Affairs to decide whether veteran’s disability
benefits may be apportioned to support dependents. 38 U.S.C. § 511(a);
38 U.S.C. § 5307. Absent such a determination, the decision of the
Secretary on the question of a veteran’s entitlement to these benefits is
absolute and review may only be sought through the Article I Court
expressly created by Congress after Rose for that purpose. 38 U.S.C. §§
7251, 7261. Henderson, supra. While the Court in Howell cited Rose,
supra, it merely confirmed what federal law allows, i.e., “some military
retirement pay might be waived” and partial disability paid in lieu may be
used to calculate spousal support. Id. at 1406. This is consistent with 42
U.S.C. § 659(h)(l)(A)(ii)(V), which recognizes the availability of a
limited portion of waived disposable disability retired pay consistent with
10 U.S.C. § 1408(e)(4). But, federal law excludes veteran’s disability pay
from this definition. 42 U.S.C. § 659(h)(l)(B)(iii). Such benefits are those
which Congress appropriated for disabled veterans under its enumerated
powers without any grant of authority to the states to consider them as an
available asset in state court proceedings. The state does not have any
29

concurrent authority to sequester these funds and put them to a use
different from their intended purpose. This Court’s reiteration in Howell
that federal law preempts all state law in this particular subject unless
Congress says otherwise remains intact. There is no implied exception to
absolute federal preemption in this area. Bennett v. Arkansas, 485 U.S.
395,398 (1988).
Although the Court in the latter case distinguished Rose, Congress
quickly acted to remove any speculation that authority had been ceded to
state courts over these veteran’s benefits. Rose, 481 U.S. at 630 (citing
congressional testimony that veterans’ disability benefits are “intended to
‘provide reasonable and adequate compensation for disabled veterans and
their families.'") (emphasis in original). Whereas 38 U.S.C. § 211 (the
provision interpreted and applied in Rose) gave state courts ostensible
concurrent jurisdiction over claims for veterans’ benefits by dependents
absent an apportionment), 38 U.S.C. § 511 (§ 211 amended as part ofthe
Veterans Judicial Review Act (VJRA) in 1988) gives exclusive
jurisdiction to the Secretary of the VA over “all questions of law and fact
necessary to a decision” as to claims for benefits by dependents and made
such decisions final and conclusive and unreviewable “by any other
official or by any court, whether by an action in the nature of mandamus
30

or otherwise.” 38 U.S.C. § 511(a) (emphasis added). Thus, Congress
changed 38 U.S.C. § 211, which had been interpreted in Rose as giving
both state and federal courts authority (concurrent jurisdiction) to make
decisions respecting a veteran’s benefits, to accord with Justice Scalia’s
concurring opinion that such joint authority would frustrate the purpose of
the federal provisions respecting veterans’ benefits. Therefore, Congress
explicitly excluded state court jurisdiction. See Rose, supra at 641
(SCALIA, J., concurring) (where he pointed out that § 211 did not then
explicitly exclude state court jurisdiction because the language of the
provision only excluded “federal official[s] or federal court[s]” from
reviewing or otherwise making decisions respecting veterans’ benefits and
stating “it would be extraordinary to hold that a federal officer’s
authorized allocation of federally granted funds between two claimants
can be overridden by a state official.”). As noted, § 211 (now § 511) was
amended to in fact explicitly exclude this state court authority and
jurisdiction because Congress removed the reference to federal courts only
and applied the limitation on review and disposition to all courts. 38
U.S.C. § 511(a) (“The Secretary shall decide all questions of law andfact
necessary to a decision by the Secretary under a law that affects the
provision of benefits by the Secretary to veterans or the dependents or
31

survivors of veterans.... [T]he decision of the Secretary as to any such
question shall be final and conclusive and may not be reviewed by any
other official or by any court, whether by an action in the nature of
mandamus or otherwise.” (emphasis added)).
After Rose, Congress went even further than removing concurrent
jurisdiction from state courts and passed the Veterans Judicial Review Act
(VJRA) of 1988, creating an Article I Court and a closed-circuit appellate
review process for all dependents’ claims for veterans’ benefits. See 38
U.S.C. §§ 7251, 7252 (H.R. Rep. No. 100-963, at 20 -21, 27 (1988),
reprinted in 1988 U.S.C.C.A.N. 5782, 5802-03, 5809-10). Thus, to
dissuade both state and federal courts from “ignoring ‘the explicit
language that Congress used in isolating decisions of the Administrator
from judicial scrutiny...Congress overhauled both the internal review
mechanism and § 211 [renumbered to § 511] in the VJRA.” See Pub. L.
No. 100-687, 102 Stat. 4105. See also Veterans for Common Sense v
Shinseki, 678 F. 3d 1013, 1021 (2012).
These post-Rose analyses, along with the plenary statutory and
regulatory program already in place concerning veterans’ compensation
and benefits, leaves no doubt that veterans’ benefits decisions are
primarily and exclusively within the jurisdiction of the Department of
32

Veterans Affairs. Any decision by a state court that forces a disabled
veteran to pay these funds over to another is unquestionably a
“decision...that affects the provision of benefits...to veterans” even
before a statutory “apportionment” is made at the request of the dependent
or the guardian. 38 U.S.C. § 511; 38 U.S.C. § 5307.
Thus, Congress directly responded to this Court’s approval in Rose of
the state’s implied “concurrent” jurisdiction and authority to control
disposition of these benefits without any federal statutory authority to do
so. The states have ignored these developments in the law and have instead
relied on Rose despite the explicit statutory changes that exclude most
veterans’ benefits from consideration and affirmatively protect them from
all legal and equitable process whatever. 42 U.S.C. § 659(h)(l)(B)(iii)
(veterans’ disability benefits are not considered remuneration for
employment and therefore are not available to be garnished (while in the
hands of the government) for satisfaction of state child support
obligations); 38 U.S.C. § 5301(a)(1) (veterans’ disability benefits are not
subject to “any legal or equitable process whatever, either before or after
receipt” by the beneficiary, that is, either while still in the hands of the
government or in the hands of the veteran beneficiary) (emphasis added).

33

Finally, despite the Court’s analysis of legislative history in Rose to
conclude that veterans had an obligation to support their dependents and
its extrapolation of that history to mean that 100 percent of a veteran’s
disability benefits may be considered by a state court considering the
veteran’s support obligations to his or her dependents, federal law already
provides the exclusive means by which dependents may seek a portion of
these disability benefits for support where they demonstrate a need
through the process of apportionment. 38 U.S.C. § 5307; 38 C.F.R. § 3.450
-3.458 (regulations governing apportionment). Jurisdiction to do this also
lies primarily and exclusively with the Secretary of Veterans Affairs, and
all decisions on any benefit determination (whether an initial
determination or on a request for apportionment) is final and conclusive
as to all other courts. 38 U.S.C. § 511(a). Review can only be sought in
the Article I court established by Congress after Rose. See 38 U.S.C. §§
511(a), 7251,7261.
7.

Even without the amendments to 38 U.S.C. § 211, Petitioner’s

case is the one alluded to by Justice Scalia in Rose. The Secretary made a
decision denying an apportionment of Petitioner’s benefits. (App. 33a).
The state court ignored this decision, even though under 38 U.S.C. §511
it is an exclusive, conclusive and final determination of a claim for
34

benefits by a dependent, and even though such a decision cannot be
controverted “by any other official or by any court, whether by an action
in the nature of mandamus or otherwise.”
Petitioner is among the large number of permanently disabled veterans
who never attained sufficient time in service to retire and who is receiving
only service-connected veteran’s disability pay. He has no income despite
the state’s fraudulent characterization of Petitioner as an “employee” of
the VA. (App. 76a). Congress has never authorized states to count these
monies as income for the benefit of others. However, this is what states do
on a routine basis. This is contrary to preemptive federal law and a
violation of the Supremacy Clause.
As the Court stated long ago, the Constitution “presumed (whether
rightly or wrongly [this Court] does not inquire) that state attachments,
state prejudices, state jealousies, and state interests, might sometimes
obstruct, or control...the regular administration of justice.” Martin v.
Hunter’s Lessee, 14 U.S. 304, 347 (1816) (emphasis added). Of these
wayward tergiversations, Justice Story spoke of the “necessity of
uniformity of decisions throughout the whole United States, upon all
subjects within the purview of the constitution.” Id. at 347-48.
Judges of equal learning and integrity, in different states, might
differently interpret a statute, or a treaty of the United States, or
even the constitution itself: If there were no revising authority
to control these jarring and discordant judgments, and
harmonize them into uniformity, the laws, the treaties, and the
constitution of the United States would be different in different
states, and might, perhaps, never have precisely the same
construction, obligation, or efficacy, in any two states. The
public mischiefs that would attend such a state of things would
35

be truly deplorable; and it cannot be believed that they could
have escaped the enlightened convention which formed the
constitution.... Id. At 348.
In McCulloch v. Maryland, 17 U.S. 316(1819), the Court spoke to the
exercise by Congress of its enumerated powers. Justice Marshall said:
“[T]hat the government of the Union, though limited in its powers, is
supreme within its sphere of action” is a “proposition” that “command[s]
... universal assent...Id. at 406. There is no debate on this point because
“the people, have, in express terms, decided it, by saying,” under the
Supremacy Clause that “This constitution, and the laws of the United
States, which shall be made in pursuance thereof,’ ‘shall be the supreme
law of the land,’” and “by requiring that the members of the State
legislatures, and the officers of the executive and judicial departments of
the States, shall take the oath of fidelity to it.” Id. Marshall finished the
point by citing to the last sentence of the Supremacy Clause:
The government of the United States, then, though limited in its
powers, is supreme; and its laws, when made in pursuance of
the constitution, form the supreme law of the land, “anything in
the constitution or laws of any State to the contrary
notwithstanding.” Id.
Of the latter clause, Justice Story wrote that it was “but an expression of
the necessary meaning of the former [that the Constitution and laws made
in pursuance thereof shall be supreme], introduced from abundant caution,
to make its obligation more strongly felt by the state judges” and “it
removed every pretence, under which ingenuity could, by its miserable
subterfuges, escape from the controlling power of the constitution.” Story,
Commentaries on the Constitution, vol II, § 1839, p 642 (3d ed 1858)
(emphasis added).
For decades, disabled veterans have suffered immeasurably under this
Court’s wholly judicial (and immediately abrogated) creation in Rose of
an exception to the explicit protections afforded them by Congress’s
exercise of its enumerated powers. Self-interested lawyers and state
36

machinations have collaborated to raise a clamor to prevent the selfevident and explicit preemptive law from taking effect. But the swell of
defiance does not make these parties any more correct, nor can it insulate
state courts from those who seek to regain and restore to themselves their
constitutional entitlements. The passage of time and the din of dissension
cannot erode the underlying structure guaranteeing the rights bestowed.
This Court has recently expressed this sentiment in overturning more than
a century of reliance on erroneous legal principles. McGirt v. Oklahoma,
140 S. Ct. 2452 (2020). There, Justice Gorsuch, writing for the majority
stated:
Unlawful acts, performed long enough and with sufficient
vigor, are never enough to amend the law. To hold otherwise
would be to elevate the most brazen and longstanding injustices
over the law, both rewarding wrong and failing those in the
right. Id. at 2482.
The federal statutes and regulations passed pursuant to Congress’s
enumerated military powers contain no allowance to the states to sequester
the veterans’ disability benefits at issue in this case and force them to be
paid over to any other individual, including children, for state-imposed
support obligations. Rather, these benefits are (and always have been)
explicitly excluded from state jurisdiction and control, before, 42 U.S.C.
§ 659(h)(l)(B)(iii), and after, 38 U.S.C. § 5301(a)(1), their receipt.
37

Logically, the only allowance for support of dependents lies within the
primary and exclusive jurisdiction of the Secretary of Veterans Affairs to
whom Congress has given primary authority and exclusive jurisdiction to
make all decisions affecting claims for benefits by veterans and by their
dependents. 38 U.S.C. § 511(a). Congress also provided for an
“apportionment” of disability benefits for the dependents of veterans ifthe
Secretary determines that the veteran will not suffer undue hardship and
the dependent is in need of a portion of these otherwise restricted benefits.
38 U.S.C. § 5307. This process occurred here. The VA denied the
apportionment request and the claimant did not appeal that decision. (App.
33a). Thus, Rose would not even apply to this case.
Moreover, Congress fundamentally abrogated Rose just after the
decision came out, and clearly removed any semblance of concurrent
jurisdiction the state may have had from that anomalous case and restored
the preexisting absolute federal preemption in this particular subject
matter. In 2017, this Court unanimously reiterated that absolute federal
preemption was the rule and that unless Congress says VA benefits of any
kind are available to the state for purposes of dividing them in state court
domestic relations proceedings, 38 U.S.C. § 5301 applied and the state
had no authority or jurisdiction to issue any legal or equitable process
38

whatever. This, of course, would include a unilateral state court order
forcing the veteran to use his or her disability benefits to satisfy a state
mandated support order. Naturally, this includes any “calculation” that
would count such benefits as income or consider them an available asset
or resource for purposes of calculating the veteran’s support obligation.
In addition to this case, state courts have rejected the absolute
preemption of federal law in this area and the primary and exclusive
jurisdiction of the VA over all decisions respecting the division of VA
disability benefits. See, inter alia, Russ v. Russ, 2021 N.M. LEXIS 12
(Apr. 1, 2021); Carpenter v. Carpenter, 2020 Mich. App. LEXIS 780
(Mich. Ct. App., Jan. 30, 2020), lv. den., 506 Mich. 892; 947 N.W.2d 806
(September 8, 2020), rec. den., 950 N.W.2d 734 (November 24, 2020),
pet. for cert, filed April 22, 2021; Matter ofBraunstein, 173 N.H. 38, 236
A.3d 870, 876 (N.H. 2020) (same) cert, den.,

S. Ct.

; 208 L. Ed.

2d 399 (Nov. 9, 2020); Alwan v. Alwan, 70 Va. App. 599, 604-607; 830
S.E.2d 45, 49 (2019); Lesh v. Lesh, 257 N.C. App. 471, 809 S.E.2d 890,
899 (N.C. Ct. App. 2018); Phillips v. Phillips, 347 Ga. App. 524, 820
S.E.2d 158 (Ga. Ct. App. 2018); Nieves v. Iacono, 162 A.D.3d 669; 77
N.Y.S.3d 493 (2018).

39

4 •

It is time for the Court to reign in the state’s brazen disregard of the
Supremacy Clause. Congress has full, plenary and exclusive authority
over the disposition of military disability pay. Tarble’s Case, 80 U.S. 397,
408 (1871). This Court has recognized this absolute preemption still
applies. Howell, 137 S. Ct. at 1404, 1406. The Court has also recognized
that Congress may give states authority over military benefits, but when it
does, the grant is “precise and limited.” Id. at 1404. “Where Congress
explicitly enumerates certain exceptions to a general prohibition,
additional exceptions are not to be implied in the absence of evidence of
a contrary legislative intent.” Andrus v. Glover Constr. Co., 446 U.S. 608,
616-17(1980).
Instead of honouring the federal authority, the state of Texas engaged
in a decades long campaign to defraud Petitioner by claiming his disability
benefits were income and ordering him under threat of contempt and
imprisonment to pay them to the state, all the while ignoring the VA’s
exclusive decision refusing to apportion them.
CONCLUSION
Petitioner respectfully requests the Court grant his petition.

40

Respectfully submitted,

4m

•MichaeliTimothy Quinn, Pro se
25531 Pacer Circle
Tomball TX 77375
(832) 922-1433
Dated: July 16th, 2021

41

